                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

     Case Number: A05070052                                                                  Page 1 of 1



                   We received an allegation that the subject1 copied text from others' work without
          properly attributing the text and distinguishing it from his own original material in 2 grant
          proposals submitted to NSF. We asked the subject for an explanation, but we were not
          p ~ s u a d e dthat the subject adequately explained lus actions. We referred the investigation of
          this matter to the subject's university. The university found additional instances of copying
          by the subject (significant amounts in 4 NSF proposals as well as small amounts in several
          proposals to other entities), and concluded that the subject committed plagiarism.

                 We agreed with the university that the subject committed plagiarism and
          recommended that NSF make a finding that he committed researchmisconduct. NSF agreed
          and took additional actions that we recommended, requiring the subject to: (1) certify for 3
          years that any proposals or reports he submits to NSF do not contain plagiarized, falsified, or
          fabricated material; (2) submit assurances from a university oficial for 3 years that any
          proposals or reports he submits to NSF do not contain plagiarized, falsified, or fabricated
          material; and (3) complete an ethics course on plagiarism.

11                  Accordingly, this case is closed.     This memorandum, the Deputy Director's




I'
 NSF OIG Form 2 (11/02)
                                             NATIONALSCENCE FOUNDATION
    .     .
i                                                    4201 WILSON BOULEVARD
                                                    ARLINGTQN, VIRGINIA 22230


                                                         DEC 1 2 2g07

               OFFICE OF THE
              DEPUM D I E T O R




        CERTIFIED MAIL -RETURN RECEIPT REQUESTED




                  Re: Notice of Research ~ i s c o a d u cDetermination
                                                          t

        Dear Dr.

        In 2003-04, you served as the principal investigator on four proposals submitted to the National
        Science~oGdation(~WSF").These proposals were entitled,
                                              . .    .          . .
                                                                  .    "




                                    ." As documented in the attached Investigative Report prepared by
        NSF's Office of lnipector General ("OIG"), these proposals contained plagiarized text.


        Research Misconduct and Actions Taken

        Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
        plagiarism in proposing or performing research funded by NSF ..." 45 CFR $669.1(a). NSF
        defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
        without giving appropriate credit." 45 CFR $689.1<a)(3). A finding of research misconduct
        requires that:

                  (1)      There be a si.gnificant departure from accepted practioes of the relevant research
                           community; and
                  (2)      The research misconduct be committed intentionally, or knowingly, or recklessly;
                           and
                  (3)      The allegation be proven by a preponderance of evidence.

        45 CFR g 6 8 9 . a ~ ) .

        in your proposal, you copied text fiom multiple sources without providing proper attribution fir
        such material. By submitting proposals to NSF that copy the ideas or words of another without
        adequate attribution, as described in the OIG Investigative Report, you misrepresented someone
                                                                                             Page 2
else's work as your own. Your conduct unquestionably constitutes plagiarism. I therefore
conclude that your actions meet the definition of "research misconduct" set forth in NSF,s
                                                                             .   .
regulations.

Pursuant to NSF regulations, the Foundation must also determine whetherb make afinding of
misconduct based on a preponderance of the evidence. 45 CFR g 6 8 9 . q ~ ) .After reviewing the
~nvesti~ative Report and the University's report, MSF has determined that, based on a
preponderance of the evidence, your misconduct was knowing and constituted a significant
departure from accepted practices of the relevant research community. I am, therefore, issuing a
finding of research misconduct against you.

 NSF's regulations establish three categories of actions (Group I, II, and ItI) that =canbe taken in
 response to a finding of misconduct. 45 CFR $689.3(a). Group I actions include issuing a letter
 of reprimand; conditioning awards on prior approval of particular activities from NSF; requiring
 that an institution or individual obtain special prior approval of particular activities fiom NSF;
 and requiring that an institutional representative certify as to the accuracy of reports or
 certifications of compliance with particular requirements. 45 CFR $689.3(a)(l). Group 1I
 actions include award suspension or restrictions on designated activities or expenditures;
 requiring special reviews of requests for funding; and requiring correction to the research record.
.45 CFR §689.3(a)(2). Group III actions include suspension or termination of awards;
 prohibitions on participation as NSF reviewers, advisors or consultants; and debarment or
 suspension from participation in NSF programs. 45 CFR 5 689.3(a)(3).

In determining the severity of the sanction to impose for research misconduct, I have considered
the seriousness of the misconduct; our determination that it was committed knowingly; the
determination that it was part of a pattern; your willingness to accept responsibility for your
actions; and the fact that your conduct did not have an impact on the published research record. I
have also considered other relevant circumstances. 45 CFR § 689.3 (b).

I find your plagiarism to be serious because the amount of text that you copied was substantial.
Moreover, in light of the fact that you submitted to NSF four separate proposals containing
plagiarized text, we believe that your plagiarism is part of a pattern of misconduct, as opposed to
an isolated incident. However, your conduct did not have a significant impact on the research
record and you cooperated fully with the investigation.

I, therefore, take the following actions:

        From the date of this letter through December 15,2010, you are required to certify that
        proposals or reports you submit to NSF do not contain plagiarized, falsif~d,or fabricated
        material. Such certifications should be sent to the OIG, 4201 Wilson Boulevard,
        Arlington, VA 22230.

        From the date of this letter through December 15,2010, you are required to submit
        assurances by a responsible oficial of your employer that any proposals or reports you
                                                                                           Page 3
       submit to NSF do not contain plagiarized,SalsiEed, or fabricated material. Such
       assurances should be sent to the DIG.

       .You are required to complete an ethics training course on plagiarism by December 15,
       2008. You must certify in writing to the OIG that such training has been completed.


Procedures Governing Appeals

Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal of this
decision, in writing, to the Director of the Foundation. 45 CFR 9 689.1O(a). Any appeal should
be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this
decision will become final. For your information we are attaching a copy of the applicable
regulations. If you have any questions about the foregoing, please contact Eric S . Gold, Assistant
General Counsel, at (703) 292-8060.




                                                     Sincerely,



                                                     Kathie L. Olsen
                                                     Deputy Director



Enclosures
- Investigative Report
- 45 C.F.R. Part 689
      National Science Foundation
       Office of Inspector General




                       Confidential
                   Investigation Report
                 Case Number A05070052
                               15 August 2007


I
    This ConfidentialInvestigation Report is the property of the NSF OIG and may be disclosed outside
       NSF only by OIG under the Freedom of Information and Privacy Acts, 5 U.S.C $$552,552a.
                                                                                                           l
                                                                                                           I(
                                                                                    NSF OIG Form 22b (11106)
                               Executive Summary

Allegation:      Plagiarism: two NSF proposals contain material copied from several
                 sources available on the internet.

OIG Inquiry:     Two proposals submitted to NSF by the subject contained
                 unattributed text copied from three sources.

University
Investigation:   The university concluded that a preponderance of the evidence
                 proved the subject copied text from several sources into four
                 proposals submitted to NSF, as well as numerous proposals submitted
                 to other funding sources, without providing appropriate attribution.
                 The university concluded that the subject committed plagiarism in
                 the proposals submitted to NSF.

OIG
Assessment:      We concur with the university that the following conclusions were
                 proven by a preponderance of the evidence:

                 Plagiarism: The subject copied verbatim text and one figure from
                 several sources into four NSF proposals, without providing
                 appropriate attribution, which constitutes plagiarism under NSF's
                 definition.

                 Significant Departure: The total amount of material that the
                 subject plagiarized was approximately 163 lines of text and two
                 copies of a figure, which constitutes a significant departure from
                 accepted practices.

                 State of Mind: The subject committed plagiarism knowingly.

                 Seriousness: O n the range of possible acts of research misconduct,
                 this case is significant but not extremely egregious.

                 Pattern: The subject engaged in an extensive pattern of plagiarism
                 involving four NSF proposals and numerous other proposals.

OIG
Recommends:      Make a finding of research misconduct, require certifications and
                 assurances for 3 years, and require completion of an ethics course.

                                       Page 1
I.     OIG's Inquiry

       We conducted an inquiry into a n allegation that the subject1 copied text from
others' work without properly attributing the text and distinguishing it from his own
original material in two grant proposals submitted to NSF, proposals l2 (Tab 1) and Z3
(Tab 2). We found approximately 55 lines of text in proposal 1 and 53 lines in proposal 2
that were identical to text in three apparent source document^.^ The sections range in
length from partial sentences to nearly complete paragraphs.

       In response to our inquiry letter (Tab lo), the subject admitted that he copied the
text but attributed his actions to misconceptions regarding certain types of sources found
on the internet (Tab 11). W e were not persuaded that the subject adequately explained
his actions and concluded that there was sufficient evidence to proceed with a n
investigation, and we referred the investigation of this matter to the university (Tab 12).

11.    The University's Investigation
       A.     Investigation Committee Report

      The university appointed a committee, which conducted a thorough investigation
and prepared a report (Tab 13).

       The committee interviewed the subject to discuss the copied material we identified
in his proposals as having appeared earlier in other sources. Consistent with statements
he made in response to our inquiry letter, the subject reiterated his arguments regarding
copying from different types of sources. The subject explained his view that material that
he found on the internet, or that he considered to be common knowledge, or that did not'




   The apparent source documents are attached at Tab 3 through Tab 9. Sources A and AA are
identical, as are sources B and BB and sources D and CC. Duplicative copies were included to
clarify the slight differences in material copied into each proposal from each source. Because the
subject has acknowledged copying the material from these (or equivalent) sources, there is no
need to analyze the slight differences in the material copied from each. (See Tab 13 pages 6-7 for
the university's resolution of the subject's cavils regarding the precise sources for certain
plagiarized passages.)


                                             Page 2
in his view contain technical content, did not warrant distinction and citation. ' He also
perceived plagiarism to embrace only the misappropriation of someone else's ideas, as
opposed to words that he viewed as conveying no significant ideas.

       The committee then conducted internet searches and identified additional
material that the subject apparently copied from other sources into one of the NSF
proposals we referred to the universityj5 as well as NSF proposals 36 and 4,7 four NIH
proposals,' three intramural proposal^,^ and a private foundation proposal.1° (The
additional NSF proposals are attached at Tab 14 and Tab 15, and the alleged sources are
attached at Tab 16, Tab 17, and Tab 18-the other proposals and sources (Exh. 25
through Exh. 37) are not attached but are available from OIG upon request by the Office
of the Director.) The committee interviewed the subject a second time and determined
that the subject was arguably a joint author on one of the newly-identified passages," but
the others constituted additional instances of plagiarism.12

        The total approximate amounts of apparently-copied text in the NSF proposals
identified by the committee13were:

                                 Proposal              Lines of
                                 Number              Copied Text
                                    1                    69
                                    2                    53
                                    3                    10
                                    4                    11
                                  Total                  143




    Proposal 1, Tab 1, page 4.



'  See Exh. 25, Exh. 26, Exh. 27, Exh. 28.
   See Exh. 29, Exh. 30, & Exh. 31.
lo See Exh. 32.

" Source "ICB"; see footnote 36.

l2 Tab 13, page 11.

l3 The committee marked the duplicative text but did not quantify it; we performed the
quantification.


                                            Page 3
       The committee arrived at the following conclusions, supported by a preponderance
of the evidence:

1.     The subject committed "multiple instances of copying of short strings of words,
       complete sentences, and nearly complete paragraphs either without alteration or
       with minimal alteration (of either text of English construct or text which is
       considered technical in a scientific sense)."14 The committee expressed the view
       that the type of source of the copied text was irrelevant.

2.     The subject's copying constituted plagiarism: "Given that [the subject] copied
       material from sources other than his own (without appropriate delineation and
       attribution of the copied text) into several grant applications to the NSF . . . , and
       to other agencies, we find that [he] committed plagiarism."15

3.     The subject's plagiarism constituted a significant departure: "All three members
       [of the committee] agree that the copying of materials that has occurred here is a
       significant departure from accepted research practice within those disciplines and
       amounts to plagiarism given accepted definitions of plagiarism and standards of the
       scientific community. "l6

4.     The committee concluded that "there can be no doubt that this copying (and thus
       plagiarism) was done knowingly."17

5.     The committee observed that the subject's numerous acts of plagiarism created a
       variety of patterns: "There were instances of copying a single piece of text from a
       single source document into more than one document. . . . There were also
       instances of copying of multiple pieces of text from a single source document into a
       single document. . . . There were instances of copying of text from multiple sources
       into a single document. . . . Thus, the [committee] recognizes that, in several ways,

l4   Tab 13, page 13.
.I5 Tab 13, page 13.

 l6 Tab 13, page 14.

 l 7 Tab 13, page 14. After concluding that the subject acted knowingly, the committee went on
 to assess whether his acts could also be considered to have been committed recklessly. In light of
 the subject's view that certain types of sources did not need to be attributed, the committee
 L'conclude[d]that there are instances where the copying of text was not reckless and other
 instances where the copying of text might be considered recltless." Because the committee's
 conclusion that the subject acted knowingly is supported by a preponderance of the evidence,
 there is no need to evaluate the committee's discussion regarding recklessness.


                                              Page 4
           [the subject] copied text in a manner that should be corisidered a pattern and not
           an isolated event."la

    6.     Because all of the plagiarism occurred in the subject's proposals, which were not
           funded or otherwise publicly disseminated, the committee concluded that the
           subject's actions did not have an effect on the research record.

    7.     Because the committee "conclude[d], by a preponderance of the evidence, that
           the plagiarism constituted a significant departure from accepted practices of the
           relevant research community; and that the plagiarism was committed intentionally
           and knowingly," it concluded that the subject committed research misconduct. l9

    8.     In a "Final Comment," the committee observed "that the acts of plagiarism
           identified by the NSF, and those additional acts uncovered by the [committee], do
           not rise to a level commensurate with the blatant misappropriation of research
           data, innovative ideas, or intellectual achievements. Similarly, the [committee]
           recognizes that the research misconduct identified by this Investigation is not as
           egregious as that occurring by fabrication, falsification, or selected omission of
           research data, or the deliberate sabotage of experiments or experimental findings."

           B.     The Subject's Response to the Investigation Report

           The subject provided a lengthy response to the committee's investigation report
    (Tab 19). The subject continued to argue that distinction should be made among various
    types of sources and types of content.20 We agree with the committee that the scholarly
    community does not make these distinctions and we too find these arguments to be
    without merit.

          The subject also argued that the committee's conclusion that he plagiarized
    knowingly is contradicted by his assertions regarding the standards for attributing certain


    la Tab 13, page 15.
    l9 Tab 13, page 16.

    20 In his response to the draft of this report, Tab 24, the subject asserts that the "arguments
    made in my Response to the Investigation Committee final Report . . . were mainly to clarify
,   what has contributed to my wrong perception of plagiarism, and not to continue to argue about
    the standards of the scholarly community." While we appreciate the subject's apparent current
    view that his previous "perception of plagiarism" was "wrong," we do not believe the arguments
    he made in his response to the universi'ty's report are amenable to the post hoc interpretation he
    now urges.


                                                 Page 5
materials, in that his ignorance of scholarly standards precluded his having knowingly
violated them. The state of mind standards are applied to the acts that constitute the
offense of plagiarism, and in this case a preponderance of the evidence proved that on
several occasions the subject knowingly copied-and-pasted text from various source
documents into his proposals. His assertions that he believed (or believes) that such
copying is not objectionable does not undermine the conclusion that he knew he was
doing it.21122

       However, while arguing that he should not be blamed for his conduct, the subject
did acknowledge that his "current understanding agrees with the [committeel's position
that no text copying of any form is allowed without proper delineation and distinction
from one's own writing,"23which "has fundamentally changed in many ways the way I
prepare my grants at present and in the future."24

       C.     The University's Final Decision

       The subject appealed the committee's findings of research misconduct to the
President of the university (Tab 20). After considering the subject's arguments, the
President concurred with the committee's findings and denied the appeal (Tab 21). The
President stated that although the subject's misconceptions and lack of understanding of
plagiarism may be relevant to the nature and severity of sanctions resulting from his
research misconduct, they do not suffice to prevent his plagiarism from being considered
research misconduct.




21
   In his Response (Tab 19, pages 5-6)) the subject also discussed the committee's conclusion
that at least some of his conduct was committed recklessly as well as knowingly-as we explained
in note 17, this discussion by the committee is irrelevant because knowledge is a sufficient state
of mind to establish culpability.
22 The subject complained that the committee did not explicitly mention the fact that none of
the plagiarized text occurred in the proposed research sections of the proposals at issue, and the
plagiarism constituted explanatory or descriptive text, not underlying scientific ideas. To the
contrary, the committee made this precise point in its "Final Comment," discussed above on
page 5. While this fact is not exculpatory, it does contribute to the assessment of the relative
seriousness of the research misconduct in the determination of the appropriate action to be
taken, below on page 9.
23 Tab 19, page 24.

24 Tab 19, page 15.



                                             Page 6
m.     OIG's Assessment

       We assessed the university's report and found it to be accurate and complete. The
report describes a fair and thorough investigation, conducted pursuant to reasonable
procedures, and we recommend adoption of its findings in whole.25 In the course of our
review of the materials provided by the university and the subject, we found a figure with
a paragraph of descriptive text in proposals 1 and 3, from a previously unidentified source
document26(relevant portions of the proposals at Tab 22; source document at Tab 23).
The subject included a nearby reference to the source document, but in a manner that
did not indicate the material had been copied verbatim.27

       A.     The Act and NSF's Definition of Plagiarism

       NSF's definition of "research misconduct" includes "plagiarism in proposing . . .
research funded by NSFIv2'and "Plagiarism means the appropriation of another person's
ideas, processes, results or words without giving appropriate credit.29 The subject
submitted to NSF the proposals attached at Tab 1, Tab 2, Tab 14, and Tab 15: the
highlighting on those proposals, and the additional highlighted material from two of those
proposals attached at Tab 22, shows the text and figure that the subject copied from
others without giving appropriate credit. The subject's actions meet the definition of
plagiarism under NSF's definition.

       B.     A Finding of Research Misconduct
       Under NSF's regulation, after a subject's conduct has been determined to meet the
definition of research misconduct, a "finding of research misconduct requires that-
(1) There be a significant departure from accepted practices of the relevant research

     -           -       -




25 45 C.F.R. 8 689.9(a).
26
   The additional text increases the amount of copied text in proposal 3 from 53 to 63 lines, and
the additional text increases the amount of copied text in proposal 1 from 10 to 20 lines.
27 In proposal 3, submitted on 6 March 2003, at the end of the quoted text, the subject added
"(Adapted from [the source document])," which is not sufficient to inform the reader that the
text and figure were copied verbatim. In proposal 1, submitted 23 July 2003, the subject omitted
this statement. In his response to the draft of this report, Tab 24, the subject stated that he
"omitted the attribution from the figure caption in Proposal 1 because [at the time he] perceived
that the statements within the text in both proposals are sufficient," but that he "now fully
agree[s] with OIG that those ways of attribution are not sufficient . . . ."
2' 45 C.F.R. 3 689.1(a).
29 45 C.F.R. § 689.1(a)(3).




                                             Page 7
community; and (2) The research misconduct be committed intentionally, or knowingly,
or recklessly; and (3) The allegation be proven by a preponderance of e~idence."~'

                 1.      Significant Departure from Accepted Practices

       The university investigation committee concluded that the plagiarism committed
by the subject in his NSF proposals constituted a significant departure from accepted
practices. Altogether, the subject submitted four proposals to NSF containing
approximately 163 lines of plagiarized text and two plagiarized figures. The subject copied
a significant amount of identical material into more than one proposal: if material that
the subject copied into more than one proposal is counted only once, the total is
approximately 97 lines of text and one figure.

       The total amounts of plagiarism committed by the subject in his IVSF proposals,
including the additional text and figure we identified after the university's investigation,
are shown in the following table. The proposals are listed in the order they were
submitted to NSF, and also shown are the amounts of plagiarism in subsequent proposals
that were new plagiarism, in that it was material the subject had not plagiarized
previously:

      Proposal          Date      Total Lines of Newly-          Copied         Newly-
      Number          Submitted   Copied Text Copied Text        Figure      Copied Figure
          3            3/6/03         20             20             1              1
          1           7/23/03         79             62             1               0
          4           10/15/03         11             1             0               0
          2           712 1/04        53             14             0               0
       Total                          163            97             2               1

Whether the subject's plagiarism in his four NSF proposals is viewed as 163 lines of text
and two figures copied once, or 97 lines and one figure copied multiple times, we agree
with the university's conclusion that the subject's plagiarism constituted a significant
departure from accepted practices.



      The university concluded that the subject acted knowingly, which conclusion is
also well supported by the evidence. Copying text and a figure from source documents



30   45 C.F.R. 8 689.2(c).

                                            Page 8
and pasting it into your own is intrinsically "knowing" conduct. We concur with the
university that the subject's copying was a knowing act.

                3.      Standard of Proof

      We also concur with the university that all of its conclusions were proven by a
preponderance of the evidence.

                4.      Conclusion

       Accordingly, all three regulatory criteria having been met, the evidence supports a
finding that the subject committed research misconduct.

         C.     Recommended Disposition

                 1.     Assessment of Considerations Identified in NSF's Research
                        Misconduct Regulation

       The possible final actions to be taken upon a finding of research misconduct
"range from minimal restrictions (Group I) to the most severe and restrictive
(Group III)."31 "In deciding what final actions are appropriate when misconduct is found,
NSF officials should consider: (1) How serious the misconduct was; (2) The degree to
which the misconduct was knowing, intentional, or reckless; (3) Whether it was an
isolated event or part of a pattern; (4) Whether it had a significant impact on the
research record, research subjects, other researchers, institutions or the public welfare;
and (5) Other relevant circumstance^."^^

                        a.    Seriousness

        The assessment of seriousness at this stage is distinct from the earlier
determination of whether the subject's plagiarism was serious enough to constitute a
significant departure from accepted practices. At this stage, the conclusion has already
been drawn that the subject committed research misconduct, and the question is how
serious the subject's misconduct was, compared to the range of possible acts of research
misconduct. The university investigation committee concluded that the plagiarism in this
case was not as serious as some other types of plagiarism ("blatant misappropriation of
research data, innovative ideas, or intellectual achievements"), nor was it "as egregious as
that occurring by fabrication, falsification, or selected omission of research data, or the

31   45 C.F.R. 5 689.3 (a).
32   45 C.F.R. 9 689.3(b).

                                            Page 9
deliberate sabotage of experiments or experimental findings."' While we agree that even
more serious cases of misconduct are possible, we believe the subject's acts of research
misconduct in this case are significant but not extremely egregious.

                      b.     Degree of Intent

       Although the subject acted knowingly, he says that he did so based on a
misunderstanding of accepted practices for attributing certain types of sources, and he
argues that this ostensible misunderstanding is exculpatory. Even if it were true that he
rose through years of scholarly study and research oblivious to scientific mores-which we
find to be inconceivable-we join the university in disagreeing that such ignorance would
excuse him of responsibility for his conduct.

       There is no question that the subject knowingly copied extensive passages of the
words of others into proposals so he could submit them to be judged for possible funding
as his own written work. He did not just copy a block of text from one document into
one of his own. He selected multiple source documents to provide material he wanted for
particular sections of his proposals. It appears he perused the sources carefully, selecting
segments of varying length to fill in various chasms and interstices in his own prose. He
included or omitted passages in different proposals, presumably as he perceived them to
be helpful. The first time he copied a detailed figure and its explanatory text, he inserted
an oblique nod to the original author-but           when he revised that proposal for
resubmission a few months later, he dispensed with even that token acknowledgement of
the bona fide author's toil. The degree of the subject's knowledge of his conduct is
nonpareil.

                      c.     Pattern and Significant Impact

       The university found that the subject's acts of plagiarism in his NSF proposals as
well as numerous other proposals established a pattern or practice. We agree with this
concl~sion.~~

        The subject committed plagiarism only in unfunded proposals, and as a result
relatively few people read and were deceived by his misappropriated text. Accordingly,
the subject's numerous acts of plagiarism resulted in no significant impact on the research
record or community.


33 The amounts of plagiarism in the non-NSF proposals varies but is significant in none of them;
in fact, the amount in two of the IVSF proposals is small. Those acts of plagiarism are
nevertheless relevant to consideration of pattern or practice.


                                            Page 10
                      d.      Other Circumstances

       A final relevant circumstance is that the subject says that he-now-knowsthat
his conduct was inappropriate and he will not repeat it. We accept this as a modest
mitigating factor.

               2.     OIG's Recommended Disposition

       Considering all of the evidence, and the factors set out above, we recommend that
NSF:

       •       send a letter of reprimand to the subject informing him that NSF has made
               a finding of research misconduct;

       •       require the subject to certifir to OIG that each proposal and report he
               submits to NSF does not contain plagiarized, falsified, or fabricated material
               for 3 years after the date of the finding of research misconduct;

       •       require the subject to submit to OIG assurances by a responsible official of
               his employer that each proposal and report he submits to NSF does not
               contain plagiarized, falsified, or fabricated material for 4 years after the date
               of the finding of research misconduct; and

       a       require the subject to submit proof to OIG of completion of a research
               ethics course within one year of the finding of research m i s c o n d ~ c t . ~ ~

N.     The Subject's Response to the Draft OIG Report

      We sent a draft of this report to the subject and provided him with an opportunity
to comment. His response is attached at Tab 24, and his comments/suggestions are
addressed in the text on page 2 and in footnotes 4, 20, and 27.




34 A letter of reprimand is one of the listed Group I actions, 45 C.F.R. 8 689.3 (a)(1)(i), and the
certification and course requirements are analogous to the listed Group 1 actions.


                                             Page 11
